                          SENSITIVE BUT UNCLASSIFIED




                      UNITED STATES DEPARTMENT OF STATE
                  AND THE BROADCASTING BOARD OF GOVERNORS
                             OFFICE OF INSPECTOR GENERAL

ISP-IB-13-46                         Office of Inspections                     September 2013


MEMORANDUM
TO:                 IBB – Richard M. Lobo
FROM:               OIG – Harold W. Geisel
SUBJECT:            Review of Broadcasting Board of Governors’ Operations in Kyiv, Ukraine
                    ISP-IB-13-46


Executive Summary

           The Office of Inspector General (OIG) found no significant management issues at the
Radio Free Europe/Radio Liberty (RFE/RL) bureau or with the Voice of America (VOA)
contract journalist in Kyiv. VOA recently reduced its presence in Ukraine from four contract
journalists to one, and the RFE/RL news bureau in Kyiv experienced budget reductions. Both
VOA and RFE/RL expressed concern about the impact that expected future reductions may have
on their ability to cover news events inside Ukraine. With 26 contract journalists, the RFE/RL
presence in Ukraine remains robust. RFE/RL is able to implement a number of the goals of the
Broadcasting Board of Governors (BBG) Strategic Plan 2012-2016, Impact through Innovation
and Integration, through a number of activities, including the increased use of social media and
an intern program involving Ukrainian students of journalism. Relations with Embassy Kyiv are
characterized as excellent, and the embassy provides support to the BBG entities when
requested. None of the staff expressed security concerns.

Purpose, Scope, and Methodology

          In connection with the OIG inspection of Embassy Kyiv, an inspector reviewed BBG
operations in Ukraine, focusing on interviews with the RFE Ukrainian Service bureau chief in
Kyiv and the VOA Ukrainian Service contract reporter in Kyiv. The inspector also conducted
telephone interviews with the RFE Ukrainian Service bureau chief in Prague and the VOA

                                            Page 1 of 3

                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED
ISP-IB-13-46         Review of Broadcasting Board of Governors’ Operations in Kyiv, Ukraine   September 2013


Eurasian Division director in Washington, DC. The inspection took place in Washington, DC,
between March 25 and April 12, 2013, and in Kyiv, Ukraine, between April 15 and May 7, 2013.

Issues regarding Budget Reductions

        In mid-April 2013, budget reductions caused by sequestration forced the VOA Ukrainian
Service to terminate contracts for three of its four stringers in Kyiv. The one remaining stringer
on contract was advised that his workload would be significantly reduced to no more than seven
assignments each month with exclusive focus on television programming on the national
television station, Channel Five, which is now the principal VOA Ukrainian Service platform.
VOA operations in Ukraine could be further challenged at the end of the year if Channel Five
requests an increase in funding for contract renewal as they have for the past 2 years. During
both of those renewal negotiations, Channel Five requested a 10 percent increase, which VOA
was able to negotiate down to 5 percent. Following sequestration cuts this year, the VOA
Ukrainian Service comprises 12 full-time employees (including one vacant position and one
employee currently being detailed to the BBG Office of Strategy and Development) and one
part-time contractor/stringer in Kyiv.

           The RFE/RL Ukrainian Service absorbed a $400,000 reduction in its budget several
months ago and expects an additional reduction in 2013, but at the time of the inspection had
received no specific information. The earlier reduction resulted in the elimination of three
contract positions in Prague. The RFE/RL Ukrainian Service broadcasts 2 hours and 30 minutes
of live news daily that is carried on a number of national and regional stations throughout
Ukraine.

          Although there was concern in the past regarding possible VOA and RFE/RL
duplication of services in Ukraine, the recently imposed personnel and program cuts have
minimized that concern. In fact, the reductions have resulted in closer collaboration between the
two services on the coverage of specific news events. RFE/RL now makes its recently expanded
video studio available to the VOA correspondent to conduct interviews for future VOA
broadcasts. According to the most recent BBG national survey (Gallup, October-November
2012), RFE/RL Ukrainian Service content on the radio or Internet reaches 1.6 percent of adults
weekly, and VOA Ukrainian Service content on television or Internet reaches 8.7 percent of
adults weekly (accounting exclusively for about 7 in 10 U.S. international broadcasting weekly
users in Ukraine).

Social Media

          In addition to its radio news service, RFE/RL produces approximately 70 video news
programs each week that are streamed on its Internet Web site. During the inspection, the
RFE/RL Ukrainian Web site received an average of 30,000 views each day. The service has also
moved into social media with interactive programs on Twitter and Facebook. RFE/RL
incorporates Facebook interaction with audiences on a number of programs broadcast by radio.
One particularly successful effort has been “Youth Plus,” a Friday evening program dedicated to
                                                 Page 2 of 3

                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED
ISP-IB-13-46         Review of Broadcasting Board of Governors’ Operations in Kyiv, Ukraine                              September 2013


youth issues that includes audience participation by Facebook. One recent program received
19,000 Facebook views. These developments relate to BBG’s 5-year strategic plan goal #7,
Elevate and Expand Social Media Innovation, and goal #8, Employ Leading-Edge
Communication Techniques and Technologies.

Radio Free Europe/Radio Liberty Intern Program

          In 2011, the RFE/RL Ukrainian Service initiated an intern program drawing on
journalism students from universities in Kyiv. The students serve as interns for 3 to 4 months in
the RFE/RL news bureau in Kyiv bureau under the supervision of RFE/RL contract journalists
and contribute material that is often broadcast. The very best of the interns frequently move on to
become RFE/RL stringers. This program is in line with BBG strategic plan goal #11, Spur
Development through Targeted Media Initiatives and Training, and has been complemented by
the Ukrainian Government and nongovernmental organizations as a positive contribution to
Ukrainian society.

Embassy Support

            Although administrative support from Embassy Kyiv to VOA and RFE/RL is limited
to the use of the pouch for sending and receiving official mail, both services characterized
relations with the embassy as excellent. The RFE/RL Ukrainian Service contract journalists work
out of a bureau located in downtown Kyiv. Security services for the facility are provided by a
private firm, although RFE/RL occasionally seeks and receives advice from the embassy on
security issues. The Kyiv news bureau chief voiced no concerns about the physical security of
this facility. The embassy invites both services to attend all events involving the media.

       I would be happy to meet with you to discuss this matter further, or your staff may
contact Robert Peterson, Assistant Inspector General for Inspections,
                                                                                [Redacted] (b) (2), [Redacted] (b) (6)




[Redacted] (b) (2), [Redacted] (b) (6)


cc:     Kelu Chao, Director, International Broadcasting Bureau
        Carol Prahl, Management Analyst, International Broadcasting Bureau




                                                 Page 3 of 3

                           SENSITIVE BUT UNCLASSIFIED
